HHS/OIG, Audit -"Review of Graduate Medical Education Costs Claimed by the Hartford Hospital for Fiscal Year Ending September 30, 1999,"(A-01-01-00547)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Graduate Medical Education Costs Claimed by the Hartford Hospital for Fiscal Year Ending September 30, 1999," (A-01-01-00547)
October 6, 2003
Complete Text of Report is available in PDF format
(1.13 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of medical education payments claimed by the Hartford Hospital for the
fiscal year ended September 30, 1999.  The objective of our review was to determine the accuracy of resident full
time equivalent counts used to calculate direct graduate medical education and indirect medical education payments.  We
identified and recommended for adjustment about $1.5 million because the Hospital claimed reimbursement for residents who:  (a)
participated in non-reimbursable residency training; (b) exceeded their initial residency period without appropriate GME
weighting reductions; (c) lacked sufficient rotation documentation; (d) rotated to non-provider settings without the appropriate
contractual agreement; (e) spent time in unallowable research activities; (f) rotated to non-reimbursable Hospital areas;
and, (g) had rotation documentation which contained various posting errors.  The Hospital agreed with $860,875 of
our audit findings and plans to develop and improve procedures to correct these issues.  The Hospital disagreed primarily
on selected cases involving non-reimbursable residency programs, insufficient rotation documentation, and non-reimbursable
non-provider settings.